<html>
<title> - NOMINATIONS OF DONALD L. MOAK, WILLIAM D. ZOLLARS, HON. MARK A. ROBBINS, CARL E. ROSS, AND ELIZABETH J. SHAPIRO</title>
<body><pre>[Senate Hearing 116-472]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-472
 
                     NOMINATIONS OF DONALD L. MOAK,
 WILLIAM D. ZOLLARS, HON. MARK A. ROBBINS, CARL E. ROSS, AND ELIZABETH 
                               J. SHAPIRO

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

       NOMINATION OF DONALD L. MOAK TO BE GOVERNOR, UNITED STATES
       POSTAL SERVICE, WILLIAM D. ZOLLARS TO BE GOVERNOR, UNITED
          STATES POSTAL SERVICE, HON. MARK A. ROBBINS TO BE AN
      ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA,
      CARL E. ROSS TO BE AN ASSOCIATE JUDGE, SUPERIOR COURT OF THE
   DISTRICT OF COLUMBIA, AND ELIZABETH J. SHAPIRO TO BE AN ASSOCIATE 
           JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                              JUNE 3, 2020

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         




              U.S. GOVERNMENT PUBLISHING OFFICE 
40-721 PDF               WASHINGTON : 2021 

        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
               Andrew J. Timm, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Hassan...............................................     2
    Senator Carper...............................................    11
    Senator Hawley...............................................    13
    Senator Peters...............................................    23
    Senator Rosen................................................    25
    Senator Sinema...............................................    27
Prepared statements:
    Senator Lankford.............................................    35
    Senator Hassan...............................................    37

                               WITNESSES
                        Wednesday, June 3, 2020

Donald L. Moak to be a Governor, United States Postal Service
    Testimony....................................................     4
    Prepared statement...........................................    38
    Biographical and professional information....................    40
    Letter from U.S. Office of Government Ethics.................    54
    Responses to pre-hearing questions...........................    58
    Responses to post-hearing questions..........................    85
William D. Zollars to be a Governor, United States Postal Service
    Testimony....................................................     5
    Prepared statement...........................................    94
    Biographical and professional information....................    96
    Letter from U.S. Office of Government Ethics.................   110
    Responses to pre-hearing questions...........................   114
    Responses to post-hearing questions..........................   134
Hon. Mark A. Robbins to be an Associate Judge, Superior Court of 
  the District of Columbia
    Testimony....................................................     6
    Prepared statement...........................................   144
    Biographical and professional information....................   147
    Responses to post-hearing questions..........................   171
Carl E. Ross to be an Associate Judge, Superior Court of the 
  District of Columbia
    Testimony....................................................     8
    Prepared statement...........................................   176
    Biographical and professional information....................   178
    Responses to post-hearing questions..........................   199
Elizabeth J. Shapiro to be an Associate Judge, Superior Court of 
  the District of Columbia
    Testimony....................................................     9
    Prepared statement...........................................   203
    Biographical and professional information....................   204
    Responses to post-hearing questions..........................   226


                     NOMINATIONS OF DONALD L. MOAK,

                          WILLIAM D. ZOLLARS,

                         HON. MARK A. ROBBINS,

                 CARL E. ROSS, AND ELIZABETH J. SHAPIRO

                              ----------                              


                        WEDNESDAY, JUNE 3, 2020

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:01 a.m., via 
video conference, the Hon. James Lankford presiding.
    Present: Senators Lankford, Scott, Hawley, Peters, Carper, 
Hassan, Sinema, and Rosen.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good morning, everyone. This is a virtual 
hearing of the Homeland Security and Governmental Affairs 
Committee (HSGAC) and it will come to order. This morning we 
will consider two nominees for the Governor of the United 
States Postal Service (USPS), Donald Lee Moak, I should say--
and William Zollars. We will also consider three nominees to 
the D.C. judiciary system, Mark Robbins, Carl Ezekiel Ross, and 
Elizabeth Shapiro, to be Associate Judges of the Superior Court 
of D.C. Let me do a brief introduction of each.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    Donald Lee Moak is currently the Chief Executive Officer 
(CEO) of the Moak Group. Previously he served as the President 
of the Air Line Pilots Association and was a captain with Delta 
Airlines for 31 years. Mr. Moak also served as an officer in 
the United States Marine Corps (USMC) and the United States 
Navy Reserves. Thank you so much for that service.
    William Zollars currently serves on the board of directors 
for Main Street Data, C2FO RedStone LLC, Cerner Corp, Prologis, 
and he was the Chairman and CEO of YRC until 2011. Prior to 
that he served in senior leadership positions with the Ryder 
Systems Incorporated and the Eastman Kodak Company.
    Mark Robbins currently serves in the Office of Personnel 
Management (OPM's) Office of General Counsel (OGC) as a general 
counsel position, he also held from 2001 to 2006. From 2012 to 
2019, Mr. Robbins served as a member of the United States Merit 
Systems Protection Board (MSPB). Prior to that he served as an 
attorney in complex civil litigation cases at the State and 
Federal trial court level and was the Executive Director of the 
Bush White House Privacy and Civil Liberties Oversight Board, 
and also served as a Senior Rule of Law advisor for the State 
Department, where he advised on the development and 
modernization of an Iraqi provincial legal justice system. 
Thanks for doing that as well. Exceptionally complicated.
    Carl Ezekiel Ross--who goes by his middle name, Ezekiel, by 
the way--serves as Counsel for the House of Representatives 
Committee on Ethics. From 2009 to 2017, he served as Assistant 
United States Attorney with the Civil Division in the United 
States Attorney's Office in Washington, D.C. Prior to that Mr. 
Ross worked as a litigation associate at Arnold & Porter and 
served as a law clerk for The Honorable James Spencer of the 
United States District Court for the Eastern District of 
Virginia. Most importantly in his resume, to me, is he is also 
a graduate of OR University in Tulsa, Oklahoma.
    Elizabeth Shapiro has been with the Department of Justice's 
(DOJ) Civil Division, Federal Programs Branch since 1991, 
serving in various roles. Currently she is the Deputy Director 
of that department. Previously, Ms. Shapiro served as an 
attorney advisor in the Department of Labor's (DOL) Office of 
the Solicitor and also served as a law clerk for The Honorable 
Stephen Eilperin and Honorable Susan Winfield of the D.C. 
Superior Court.
    The Committee takes these nominations extremely seriously. 
We are pleased to have these nominees before us. Committee 
staff reached out to many of the colleagues and affiliates of 
the nominees. They spoke exceptionally highly of all your 
professional abilities and fitness to potentially serve in the 
roles for which you have been nominated. Staff has interviewed 
all the nominees on an array of issues. Each has thoughtfully 
and competently answered each question.
    I look forward to speaking with each of you more today on 
your experience and accomplishments of how you intend to bring 
them to bear for the District of Columbia and for the Nation.
    I now recognize the Ranking Member, Maggie Hassan, for her 
opening statement.

             OPENING STATEMENT OF SENATOR HASSAN\1\

    Senator Hassan. Thank you, Mr. Chairman, and thank you to 
the nominees for your participation in this process and for 
your willingness to serve the American people.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hassan appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    We find ourselves today in the midst of an unprecedented 
time in our nation's history. More than 100,000 Americans have 
been killed by a deadly pandemic, a number that continues to 
grow. Forty million Americans are out of work, and our entire 
country is reeling from the senseless killing of George Floyd, 
and the reality of unequal access to justice, health care, 
education and economic advancement many Americans face because 
of the color of their skin.
    We have much work ahead of us. One of the issues before us 
today is the future of the United States Postal Service, an 
agency that is committed to serving all Americans in every part 
of the country, from urban centers to rural roads. And during 
this pandemic, the Postal Service has been an especially vital 
lifeline for medications, food, and other supplies for many 
Americans.
    Unfortunately, the United States Postal Service is in a 
dire financial condition, one that has been worsened by the 
coronavirus disease (COVID-19) pandemic. The Postal Service 
estimates it will lose $13 billion in revenue this year, and 
may run out of funds as early as September.
    A collapse or reduction of postal services would negatively 
impact all Americans, but it would disproportionately affect 
those who live on rural delivery routes, people with 
disabilities, and seniors who might have mobility issues.
    The Postal Service is often the only carrier that will 
deliver mail that last mile to rural homes. Supporting the 
Postal Service so that it can continue to offer equity and 
universal service for all Americans is of vital importance, 
especially now.
    The Postal Service, the District of Columbia, and our 
nation face big problems that our nominees, if confirmed, are 
going to have to grapple with, and it will not be an easy job. 
But it is a job of vital importance to our Nation, and I 
applaud our nominees for their willingness to serve the 
American people in these important roles.
    Though this time is dark, I remain optimistic that we will 
find ways to solve our problems, that the resilience and 
resourcefulness of the American people will win out, and that 
we will all get through this together.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you, Senator Hassan. It is the 
custom of this Committee that we do swear in all of our 
witnesses that appear before us, so I would ask you to raise 
your right hands. You do not have to stand there. Also we would 
not be able to see you, probably, so just raise your right 
hand. Do you swear that the testimony that you will give before 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Moak. I do.
    Mr. Zollars. I do.
    Mr. Robbins. I do.
    Mr. Ross. I do.
    Ms. Shapiro. I do.
    Senator Lankford. I ask that the record reflect that all 
witnesses answered in the affirmative. Thank you very much for 
that.
    We have an opening statement from each of you, and I am 
going to recognize Mr. Moak for his opening statement first. If 
you would open up your microphone, and you will have 5 minutes. 
And please give us your opening statement and we will be 
pleased to be able to receive all of those after yours. Thank 
you.

TESTIMONY OF DONALD L. MOAK,\1\ TO BE A GOVERNOR, UNITED STATES 
                        POSTAL SERVICE.

    Mr. Moak. Good morning Chairman Lankford, the Ranking 
Member and Members of the Committee. It is an honor for me to 
address you today, and I want to thank you for considering my 
nomination.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Moak appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    I believe government service is a high calling and I 
consider it an honor to serve my country. My government service 
began in the summer of 1977, when I commenced the United States 
Marine Corps Officer Candidate school. Ultimately, I was 
commissioned as a Second Lieutenant and served in the Marine 
Corps as a fighter pilot, flying the F4 and the F18. I did two 
tours of duty in Asia and upon return did a Navy exchange tour 
at Cecil Field, Florida. After 9 years of active duty, I left 
the Marine Corps and transitioned to the Navy Reserve, where I 
continued to fly fighter jets until I retired from the military 
with the rank of Commander in 2001.
    After my time on active duty, I also became a pilot for a 
commercial air carrier. As a commercial airline pilot, when not 
performing my primary duty of safely transporting passengers, I 
volunteered and was elected as a representative to the Air Line 
Pilots Association (ALPA), an association that was originally 
conceived in 1931 to represent air mail pilots.
    I had many appointed and elected positions in the 
association, ultimately becoming the President of ALPA from 
2011 to 2014. I represented more than 50,000 U.S. and Canadian 
pilots at over 30 companies on contractual, safety, and 
government policy matters. I led a team to address complex 
bankruptcy restructurings, mergers, and retirement, healthcare, 
and benefit matters. Nothing was easy in the airline and labor 
business, and all stakeholders had to work together to settle 
negotiated agreements. I also served on numerous government 
aviation safety committees, including the Federal Aviation 
Administration's (FAA), Management Advisory Committee (MAC), 
the NextGen Advisory Committee (NAC) on air traffic services, 
and recently I was appointed to the FAA's Drone Advisory 
Committee (DAC). Last year, I also co-chaired the Department of 
Transportation's (DOT) Special Committee to Review the FAA's 
Certification Process.
    When I was nominated for a position on the Board of 
Governors of the USPS, I was truly honored. More importantly, I 
am motivated to get to work to help the Postal Service thrive 
and meet its Universal Service Obligation (USO). As a proud 
American citizen and a veteran of our armed forces, I am 
forever grateful for the mail that was sent from my parents in 
the United States to me at the mail call near my tent in South 
Korea in 1983. Today, I send mail to my youngest son, 
Lieutenant Junior Grade Moak, stationed on the USS Bataan, 
which is currently at sea deployed to the Middle East.
    Whether it is letters to and from our men and women in 
uniform, birthday cards from beloved family members, essential 
the Coronavirus Aid, Relief, and Economic Security (CARES) Act 
stimulus checks, or routine correspondences like bill payments, 
the USPS and its mission of delivering reliable, affordable, 
universal mail to the American people is an enterprise that I 
am motivated to ensure continues and succeeds.
    In preparing for this nomination I have reviewed some of 
the information detailing the compound financial and service 
challenges facing the United States Postal Service today. If 
confirmed, I intend to spend intensive time working with the 
current Board, the new Postmaster General (PMG), USPS 
management, USPS labor, and all stakeholders to better 
understand the problems they are facing.
    Though I am not a postal expert and I am still only at the 
beginning stages of understanding the Postal Service's current 
challenges, what I am is someone who believes that any problem 
is solvable and as I have stated previously, I have worked on 
complex issues concerning many of these same challenges with 
multiple stakeholders with differing agendas, and have found 
success. I believe that by identifying all issues, working with 
all stakeholders, driving consensus on a comprehensive plan, 
then deciding how to execute that plan with thorough, measured 
and transparent oversight, success will follow.
    If confirmed, I look forward to working on the challenges 
facing the United States Postal Service and I am confident that 
we will work together to continue to meet the expectations of 
the American people and uphold the mission of the USPS.
    Thank you, Chairman Lankford and Members of the Committee, 
and I look forward to your questions.
    Senator Lankford. Thank you, Mr. Moak. Mr. Zollars.

 TESTIMONY OF WILLIAM D. ZOLLARS,\1\ TO BE A GOVERNOR, UNITED 
                     STATES POSTAL SERVICE

    Mr. Zollars. I would like to thank President Trump for the 
honor of being nominated, and thank the Senate for your 
consideration of my appointment to the Board of Governors of 
the U.S. Postal Service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zollars appear in the Appendix on 
page 94.
---------------------------------------------------------------------------
    The last time I was in a position to serve my country 
directly was 1970, when I enlisted in the Army National Guard. 
In the 50 years since, I have accumulated substantial 
experience that I believe will help me make a contribution in 
solving the important challenges facing the Postal Service and 
give me an opportunity, once again, to serve my country.
    The Founders obviously thought the Postal Service was 
important enough to include in the Constitution, and the fact 
that it has remained an integral component of American life 
throughout our history is a confirmation of their foresight. As 
a resident of Kansas, I can verify the added importance of this 
vital service to rural America, where the Postal Service is a 
reliable, dependable, and trusted symbol of government promises 
kept. It is for these important reasons that I am committed to 
helping solidify the long-term future of this important part of 
America.
    During my years in private industry I have led large 
organizations in three different Fortune 500 companies and 
served on the board of directors of four different Fortune 500 
companies.
    My last position was the most relevant to the Postal 
Service since it was a nationwide, unionized logistics network 
of over 50,000 associates. The company was on the brink of 
financial failure when my team took over, but, by working in 
concert with our union workforce on a strategy focused on 
mutual success, we were able to deliver four consecutive years 
of record revenue and profitability. In the process, we 
delivered outstanding service to our hundreds of thousands of 
customers, whether they were in Manhattan, Kansas, or the 
island of Manhattan. I mention this to illustrate that I am 
familiar with turnaround situations.
    During my 15 years at YRC, we served every ZIP Code in the 
country--our own version of the ``Universal Service 
Obligation.'' We delivered shipments to our customers on time, 
regardless of distance or density, and in the most efficient 
way possible. We were also able to offset a labor cost 
disadvantage with a knowledgeable and experienced workforce 
enabled by an optimized network and effective technology.
    At YRC we were also a direct participant in the postal 
delivery process by providing consolidation and de-
consolidation services on behalf of the USPS. In addition we 
were able to effectively deal with billions of dollars of 
unfunded liability in some of the multi-employer health and 
pension funds.
    Beyond YRC and from a broader governance perspective, I 
have worked effectively for nearly 20 years on public boards in 
the health care, technology, real estate, and transportation 
industries. I also have had the opportunity to experience 
postal service outside the United States. Five years in Europe, 
three in Canada, and a year in Japan gave me a view of 
different approaches to mail and package delivery.
    Finally, and very importantly, even though the Postal 
Service has complex and significant challenges ahead, they also 
may have a sustainable competitive advantage--last mile, last 
touch density. No other competitor has that, and it is why the 
United Parcel Service (UPS), Federal Express (FedEx), and 
Amazon use the Postal Service on a regular and frequent basis 
to complete their deliveries. Although I do not yet have an in-
depth knowledge of the Postal Service, I am anxious to learn as 
much as possible about the potential in this and other areas of 
advantage.
    So, if I am fortunate enough to be confirmed, I will work 
with Congress, the Postal Regulatory Commission (PRC), and the 
Board of Governors to oversee and guide management to ensure a 
sustainable future for this required and fundamentally 
important and great American asset, the United States Postal 
Service.
    Thank you, and I look forward to your questions.
    Senator Lankford. Thank you. Mr. Robbins.

    TESTIMONY OF THE HONORABLE MARK A. ROBBINS,\1\ TO BE AN 
  ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Robbins. Chairman Lankford, Ranking Member Hassan, and 
Members of the Committee, I appreciate this opportunity to 
present my qualifications and respond to your questions 
regarding my nomination to be an Associate Judge on the 
Superior Court of the District of Columbia. I want to thank the 
President for the honor and privilege of his nomination, and 
the District of Columbia Judicial Nomination Commission (JNC) 
for its recommendation to the President. If confirmed, I pledge 
to prove my worthiness of this appointment by carrying out my 
responsibilities with the highest degree of professionalism and 
integrity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Robbins appears in the Appendix 
on page 144.
---------------------------------------------------------------------------
    This is the second time I have been honored to have a 
nomination considered by this Committee. The last time was in 
March 2012, when I was nominated for a 7-year term as a Member 
of the U.S. Merit Systems Protection Board. In fact, I have a 
long professional history of productive and successful 
interaction with this Committee, its members and staff, both 
majority and minority as those roles have shifted over the 
years, since its inception in present form in 2005, and before 
that with the Senate Governmental Affairs Committee going back 
to 2001.
    I believe that my 30 year legal career has prepared me well 
for this new position. I have served for 13 years as a 
commercial civil litigation attorney with a broad variety of 
experience at the State and Federal trial court level, at both 
law firms and as in-house counsel. As the Chairman noted, I was 
a member and acting Chairman of the MSPB for 7 years, where I 
adjudicated over 4,000 cases. I am presently serving as General 
Counsel (GC) at OPM. I have been a three-time General Counsel 
to two Federal agencies. I was an international Rule of Law 
Advisor managing the development and modernization of an Iraqi 
provincial legal and justice system with the Army's 172d 
Infantry Brigade. I have been a member of the White House staff 
in two administrations, and a Legislative Assistant to two 
Members of the U.S. House, covering justice and judicial 
issues. Serving as a judge on the D.C. Superior Court would be 
the honor of my lifetime and the crowning achievement of my 
career.
    As I noted in 2012 at my confirmation hearing, I was 
conscious of moving from the professional role of a legal 
advocate, whether in public service or in private practice, to 
that of an adjudicator. I am proud to say that I have made that 
adjustment quickly and successfully. I enjoy adjudication.
    Before concluding, I would like to thank those who have 
assisted me in this process: my friends and colleagues who have 
given me their moral support and future colleagues at the D.C. 
Superior Court who have lent me their encouragement. Finally, 
and most importantly, I especially want to thank my family. My 
mother passed away 3 years ago, but she and my father were 
here, in person, when I was last before this Committee. They, 
my sister and brother, and their families, are present today 
either in spirit or through technology during these challenging 
and difficult times.
    Mr. Chairman, again, thank you. I look forward to 
responding to any questions the Committee may have.
    Senator Lankford [continuing]. For your questions being 
shorter because you went shorter on your opening statement as 
well, so you will get a bonus on that.
    Mr. Robbins. Thank you.
    Senator Lankford. Thank you, Mr. Robbins. Mr. Ross.

    TESTIMONY OF CARL E. ROSS,\1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Ross. Good morning, Mr. Chairman, Ranking Member, and 
Members of the Committee. It is an honor to be considered for 
an associate judgeship with the D.C. Superior Court, and I want 
to thank the Members of the Committee and the dedicated 
Committee staff for considering my nomination.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ross appears in the Appendix on 
page 176.
---------------------------------------------------------------------------
    I would like to thank the JNC and its Chair, the honorable 
Emmet Sullivan, for recommending me to the White House, and the 
President for nominating me. I would like to thank my parents, 
Carl and Gwen Ross, for teaching me the value of hard work, and 
my siblings, Marsha, Della, and Cecil, for keeping me grounded. 
I would like to thank my in-laws, Pastor Gerold and Wendy 
LeBlanc, for always leading by example, and I would like to 
thank my family, friends and mentors, including the Honorable 
James Spencer, the Honorable Hannah Lauck, the Honorable Rhonda 
Reid-Winston, and the Honorable Rudolph Contreras for their 
continued guidance and support.
    I would like to thank the members and staff of the House 
Ethics Committee, including Chairman Ted Deutch and Ranking 
Member Kenny Marchant, for their leadership and for allowing me 
to work alongside them in the Committee's pursuit of justice. 
And most importantly, I would like to thank my incredible wife 
for her unrelenting love and support.
    I am a proud third-generation Washingtonian who was taught 
from an early age the importance of giving back to the 
community and living by the principle ``to whom much is given, 
much is required in return.'' My parents dedicated their 
professional careers to government service, and they now 
dedicate their retirement years to caring for children in need 
and running a treatment foster care agency.
    Following in their public service footsteps, I began my 
legal career clerking for the Honorable James R. Spencer of the 
Eastern District of Virginia. During my clerkship, I witnessed 
first-hand the characteristics that make a good judge, and I 
learned the importance of patience when dealing with civil and 
criminal litigants. I went on to work for a large international 
law firm here in Washington, D.C., where I learned to handle 
large and complex legal matters, and through my pro bono work, 
many of the challenges facing indigent litigants in the 
district.
    For 7 years, I served beside some of the most talented and 
dedicated attorneys in the country as an Assistant United 
States Attorney (AUSA) in the Civil Division of the U.S. 
Attorney's Office for the District of Columbia. During my 
tenure as an AUSA, I managed a large and complex case docket 
and represented the United States in more than 100 civil cases 
in Federal district and appellate courts.
    For the past 3 years, I have had the great honor of serving 
as Investigative Counsel for the U.S. House of Representatives 
Committee on Ethics, where I have investigated criminal and 
civil matters and helped prepare those matters for adjudication 
by the Committee. During my time with the Ethics Committee, I 
have moved away from traditional advocacy on behalf of an 
individual or entity and learned to review evidence and 
testimony with an eye toward adjudication. I have seen first-
hand the importance of handling matters without pre-judgment, 
understand the need to move matters expeditiously, and 
comprehend the importance of ensuring that each individual that 
comes before the Committee receives proper due process.
    It would be an incredible honor to now use the techniques, 
insights, and skills that I have developed throughout my career 
to serve my fellow residents of the District of Columbia as an 
Associate Judge with the D.C. Superior Court. If confirmed, I 
will ensure that all litigants are treated fairly, I will 
faithfully enforce the rule of law, and I will be steadfast in 
upholding the Constitution.
    Thank you again for considering my nomination and I look 
forward to answering your questions.
    Senator Lankford. Mr. Ross, thank you very much. Ms. 
Shapiro.

TESTIMONY OF ELIZABETH J. SHAPIRO\1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Shapiro. Good morning, Chairman Lankford and Ranking 
Member Hassan, and Members of the Committee. It is a great 
privilege to be here. I am deeply grateful for the opportunity 
to appear before you as you consider my nomination to be an 
Associate Judge of the Superior Court of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shapiro appears in the Appendix 
on page 203.
---------------------------------------------------------------------------
    I want to thank the Judicial Nomination Commission and its 
chair, Judge Emmet Sullivan, for recommending me to the White 
House, and the President for nominating me. Finally, I would 
like to express my thanks and appreciation to the Committee 
Members and the dedicated Committee staff for their hard work 
in considering my nomination, particularly during this 
difficult period.
    I would like to single out my husband and life partner, 
Amos Gelb, for his love and support over the last 25 years. 
Without him, I could not have accomplished all that I have 
professionally, or managed to raise our three wonderful 
children. To my children, Noa, Eliya, and Mica, I thank you for 
being the light of my life, for being the strong and 
independent-minded individuals that you are, and for sharing 
your mother with one of this country's great institutions, the 
Department of Justice. I love and cherish each of you.
    To the men and women of the Department of Justice, working 
with you has been the honor of a lifetime. You are the best and 
brightest colleagues imaginable. I particularly thank my 
colleagues in the Federal Programs Branch for being part of my 
extended family for the past 29-plus years. Your commitment to 
excellence and devotion to public service is second to none.
    I am a native Detroiter and graduate of the University of 
Michigan. From there I moved to Washington, D.C. to attend law 
school, and I have never left. My children were all born and 
raised here in D.C. My oldest daughter is a local actress and 
casting director. My second daughter is a soccer player, 
studying athletic training in college. And my son is an 
offensive lineman, playing football for the University of 
Michigan.
    I started my career as a judicial clerk at the Superior 
Court. I then spent 2 years working appellate cases at the 
Department of Labor. From there I moved to the Department of 
Justice. In the Civil Division of DOJ I began as a line 
attorney, handling a wide variety of cases on behalf of the 
Executive Branch. I then became a supervisor specializing in 
government information, and ultimately I served as the Deputy 
Director of the Federal Programs Branch. I was also privileged 
to serve as Special Assistant United States Attorney for a 
limited time.
    I have been honored to represent the Department not just in 
court, but also on the Federal Rules Committees created under 
the Rules Enabling Act. The inclusive and transparent nature of 
those proceedings is a model for the judiciary, as are the 
civility and open-mindedness, qualities that I hope and expect 
to bring to the bench.
    Thank you again for considering my nomination and I look 
forward to answering any questions you might have.
    Senator Lankford. Thank you very much, all of you, for 
giving your opening statements, and extremely timely. I had 
mentioned before that I am going to defer my questions to the 
very end, to allow other Members to be able to jump in and ask 
their questions first, except for one thing. We have a set of 
mandatory questions that every person that is before this 
Committee needs to be able to answer. And so this will be a 
little more awkward than normal, because typically I can call 
on each person. But there will be a short question. I would ask 
all five of you to unmute your microphone, and I am going to 
ask you a yes-or-no questions and call each of you by name as I 
go through these.
    So the first of these questions, is there anything that you 
are aware of in your background that might present a conflict 
of interest with the duties of the office to which you have 
been nominated?
    Mr. Moak.
    Mr. Moak. No.
    Senator Lankford. Mr. Zollars.
    Mr. Zollars. No.
    Senator Lankford. Thank you. Mr. Robbins.
    Mr. Robbins. No, sir.
    Senator Lankford. Mr. Ross.
    Mr. Ross. No.
    Senator Lankford. Ms. Shapiro.
    Ms. Shapiro. No.
    Senator Lankford. Thank you. The second question. Do you 
know of anything person or otherwise that would in any way 
prevent you from fully and honorably discharging the 
responsibilities of the office to which you have been 
nominated?
    Again, Mr. Moak.
    Mr. Moak. No.
    Senator Lankford. Mr. Zollars.
    Mr. Zollars. No.
    Senator Lankford. Mr. Robbins.
    Mr. Robbins. No.
    Senator Lankford. Mr. Ross.
    Mr. Ross. No.
    Senator Lankford. Ms. Shapiro.
    Ms. Shapiro. No.
    Senator Lankford. Thank you. Third question. Do you agree, 
without reservation, to comply with any request or summons to 
appear and testify before any duly constituted committee of 
Congress if you are confirmed?
    Mr. Moak.
    Mr. Moak. Yes.
    Senator Lankford. Mr. Zollars.
    Mr. Zollars. Yes.
    Senator Lankford. Mr. Robbins.
    Mr. Robbins. Yes, sir.
    Senator Lankford. Mr. Ross.
    Mr. Ross. Yes.
    Senator Lankford. Ms. Shapiro.
    Ms. Shapiro. Yes.
    Senator Lankford. Great. Thank you very much. I am going to 
then defer questions on to Senator Carper. I think Senator 
Hassan is not there. She had to be able to cutoff to another 
committee. So Senator Hassan, if you are still there you need 
to let us know real quick. But I think she had to cut to a 
different committee. If not, Senator Carper, you are up.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Good morning, Mr. Chairman.
    Senator Lankford. Good morning.
    Senator Carper. Good morning to each of our nominees, and 
thank you for not only your willingness to serve in these 
capacities, these positions to which you have been nominated, 
but thank you for joining us today.
    I was privileged, earlier in my life, to serve as a naval 
flight officer (NFO) for a while during the Vietnam War, and I 
must say, Mr. Moak, are you retired Marine or Navy?
    Mr. Moak. I am a retired Navy commander but son of a 
retired Marine master sergeant.
    Senator Carper. There you go. I am the son of a retired 
Navy chief petty officer and retired Navy captain. I love the 
Navy. I had uncles who served in World War II, Korea, in the 
Army, Navy, and Marine. My grandmother is a Gold Star mother. 
And so like your family we know what it means to serve, and we 
are pleased that each of you are willing to serve in the 
capacities to which you have been nominated.
    Mr. Zollars, did I understand that you also served in 
uniform? Did I hear that?
    [Pause.]
    Mr. Zollars. Yes. Army National Guard.
    Senator Carper. That counts. I used to be commander in 
chief of the Delaware National Guard. I loved doing that. I 
wondered why they took a Navy guy and made him the commander in 
chief of the Army and the Air Force forces. There is probably a 
lesson there. I do not know. They did OK.
    Mr. Zollars. I was proud to serve.
    Senator Carper. I also, when I was privileged to be 
Governor, this is to our judicial nominees, I had the privilege 
to nominate, over 8 years, dozens probably scores--of people 
serving in all the courts of Delaware, which played a major 
role in punching above my weight in Delaware when it comes to 
the judiciary, and I was very proud and privileged to be able 
to do that.
    I would say, in reading the bios of each of our nominees, 
Mr. Chairman, and listening to you speak this morning, what 
excellent nominees. I think we are privileged and really 
fortunate that you are willing to serve.
    I want to ask a question, if I can, of Commander Moak, also 
known as Mr. Moak, and to Mr. Zollars. What have you learned 
about the Postal Service so far, going through this nominating 
and this confirmation process? What have you learned that has 
direct bearing on the ability of the Postal Service not just to 
limp along, not just to need Band-Aid after Band-Aid, but what 
have you learned about how we might, by addressing the root 
causes of their challenges, how might we enable the Postal 
Service not just to survive or linger but actually thrive?
    Mr. Moak, can you just go first please. What have you 
learned through this confirmation process? Maybe something you 
did not know. Maybe something that has been a new approach for 
to you.
    Mr. Moak. I reviewed a few of the reports, and this might 
be a little naive but this seems like other problems that we 
have dealt with in the past where everyone needs to come 
together, and that is Congress, that is the Chairman of the 
Board of Governors, that is having a fully functioning Board of 
Governors, that is USPS management, that is our front line 
employees doing an incredible job every day, USPS labor, and 
most importantly, their customers, the citizens of the United 
States.
    We have many benefits here where we have mail delivered 
under the USO all across the country, and around the globe 
really, and that is quite an advantage that perhaps has not 
been looked at.
    But the solution to this problem, I think, Senator, is that 
everyone has to recognize that they have a part in it and you 
need to first identify all the challenges here and then get 
everyone to step up in a transparent fashion, decide how to go 
from A to B--I believe it is very doable--and then make sure 
you have someone leading from A to B and hold everyone 
accountable from A to B.
    Senator Carper. Right. Hold it right there.
    Mr. Moak. I think it is solvable. It believe it is very 
solvable.
    Senator Carper. Thank you. That is good. I like that 
optimism.
    Mr. Zollars, what have you learned going through this 
confirmation process to change the long-term survivability and 
recovery, if you will, of the Postal Service?
    Mr. Zollars. Senator, first of all I have learned that 
there are----
    Senator Carper. Can you speak just a little bit louder?
    Mr. Zollars. Sure. First of all, Senator, I have learned 
that there are some very complex problems here, but they look 
very similar to some of the problems I faced on the commercial 
side at YRC. Those problems include a cost disadvantage, 
service challenges. We had a similar situation with respect to 
unfunded liability. So there are a lot of things that are 
similar on the challenge side.
    I would echo a little bit of what Lee said, which is I 
think the solution to this is probably also very complex and 
involves looking at network optimization, looking at services 
that can be provided, looking at where we would have a 
competitive advantage in that last-mile delivery, which I think 
is something that probably we can focus a little bit more on 
once I get a little bit more knowledge under my belt.
    But at the end of the day I think the real answer is to get 
a strategy that is comprehensive, that everyone buys into, but 
that does not have a 10-year horizon. I think we need a 
strategy that has sequencing, where you can get some success 
early, build on that success, build on the momentum, and get 
everybody in the entire organization behind that strategy 
execution, and then work with Congress and the PRC to make sure 
that they also buy into that strategy.
    So it is really getting that transparency and buy-in from 
everybody in this challenge and getting them moving in the same 
direction.
    Senator Carper. Albert Einstein used to say, ``In adversity 
lies opportunity.'' And in the Bible it says, ``In all things 
give thanks.'' And there is plenty of adversity here for the 
Postal Service. There is also some opportunity. And the 
requirement to go to basically every mailbox in the country, 
roughly 6 days a week, that is a burden but it is also an 
opportunity. And it has all been partially realized, and maybe 
we will have a chance in the second round of questions to come 
back and explore some of those opportunities.
    Thank you all, and again to the judicial nominees, I look 
forward to asking you a question or two, particularly with 
respect to the core values that guide you. Thank you.
    Senator Lankford. Senator Carper, thank you. Senator 
Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Thanks to the 
nominees for being here.
    Mr. Moak, I wanted to come back to you and pick up on the 
line of questioning that I think Senator Carper was just 
pursuing there. I could not hear all of it but I gather he was 
asking about some of the service commitments of the Postal 
Service and also the opportunities for reform.
    So let me just ask you, Mr. Moak, in light of the 
disruptions to its service that the Postal Service has 
experienced over the last few years, for a variety of reasons, 
even before the COVID-19 pandemic--I am thinking of the changes 
in demand due to changing technology and so on--can you talk to 
us about what you think a path for reform is, to make sure that 
the Postal Service, which has been with us for 250 years, and 
is absolutely vital, I want to say, to my State, to rural areas 
in my State. I think the goal has to be to see the Postal 
Service exist for another 250 years and continue to serve the 
people of this country, especially the people of our areas that 
are hard to reach, that are hard to get to, who really rely on 
the Postal Service to be that lifeline.
    Can you give us a sense of what your priorities will be and 
your sense of what the Postal Service could do in the 21st 
Century to make sure it continues to meet its service 
obligations?
    Mr. Moak. First I am not a postal expert but I can tell you 
that I work very hard and I am intense in my drive to make sure 
I solve these problems and share your views on the USO, I 
believe.
    That being said, it is easy to say the last mile but I 
would like to focus quickly on the first mile. The postal 
worker, day in and day out, may be the only government employee 
that in rural America, or even in urban America, that any 
American ever sees. They pick up that mail, they pick up that 
package, they take that out.
    Now we are focusing on the last mile when we are bringing 
something to them, but I think we focus on exactly what we do, 
how we do it, and we balance that customer service challenge 
that we have in front of us, from how we do it in a financially 
responsible, economically viable way going forward.
    I really believe that it is solvable, and I really believe 
that it is important. We have a tendency to forget that even 
today, even today we are all relying on the Postal Service to 
deliver those CARES Act checks, to deliver other information to 
rural America, to all Americans.
    So all I see is opportunity here. All I see is the ability 
to solve these problems. And again, when I have time to get in 
there and really look at it, I think the challenges will be 
met.
    Senator Hawley. Tell me about your view of the Universal 
Service Obligation and its role in the USPS mission.
    Mr. Moak. Well from what I have read, OK, the first thing 
is Congress has given us a statutory requirement that we need 
to execute on. Now there is a lot of debate on what that is and 
the specificity that needs to be with the USO. But as far as my 
role on the Board, working with the chairman of the Board, and 
working to fulfill that, I believe it is delivering mail and 
packages to every address in the United States in a timely 
fashion.
    Senator Hawley. Do you have a view on the new mission 
statement that was adopted on I believe it was April 1, by the 
USPS Board of Governors?
    Mr. Moak. I am not aware of that.
    Senator Hawley. Why do you not make yourself aware and get 
back to me. How about that?
    Mr. Moak. I would be glad to do that.
    Senator Hawley. Good. I will hold you to that.
    Mr. Zollars, let me ask you, many communities, again, in my 
State of Missouri, depend on the USPS as a critical lifeline 
for First-Class Mail and for package delivery. How can we 
ensure that rural communities continue to receive mail at a 
fair price, even as we consider modernizing reforms that will 
help preserve USPS for this next century? Give us your views on 
that.
    Mr. Zollars. Senator, as you know I am a neighbor so I can 
fully appreciate the fly over country aspect of this challenge. 
I think it goes back to what I had kind of talked about a 
little earlier at YRC. People would come to me at YRC and ask 
me whether I wanted lower cost or better service, and my answer 
was always ``yes, that is what I want. I want lower cost and I 
want better service.'' I think the same mindset, that that 
mindset has to be translated into the USPS. I think they are 
not mutually exclusive.
    As I said in my opening statement, we served every ZIP code 
in the country, regardless of distance or density. We found a 
way to get products to customers on time at a reasonable cost, 
and I think that has to be our goal at the USPS. It is not an 
easy problem to solve. It has to be broken down into pieces, 
but I think it is solvable.
    Senator Hawley. Give me a sense of whether or not, if you 
are confirmed, if you willing to commit to protecting access to 
USPS and delivery service for rural Americans. Can you commit 
to that for me, Mr. Zollars?
    Mr. Zollars. Absolutely. It is part of the mission, so I 
absolutely can commit.
    Senator Hawley. Give me a sense--you just mentioned some of 
the work you did at YRC. Give me a sense of your turnaround 
experience and the lessons that you learned from that. In 
particular, how did you manage to maintain all of your services 
at your fleet?
    Mr. Zollars. There was a tough situation when I got there 
with my team. We were in really bad financial shape, for a 
number of reasons. We had declining revenue, we had increasing 
in costs. I think the first part of the solution was following 
what Jim Collins said about getting the right people on the 
bus. You need a leadership team that has a common vision and a 
common mission, and then you need to permeate that throughout 
the organization.
    I think one of the real advantages we developed was that 
vision was transparent and really obvious to everybody in the 
organization, all 50,000 of the associates. And once we got 
them on board with the strategy and what we were trying to get 
done and began to show some results then you reach a tipping 
point when things pick up momentum on their own, and then I 
think you are in a good position to get the problem solved.
    But it is a multifaceted problem. It starts with getting 
everybody on the same page with respect to what you are trying 
to get done and how you are trying to get it done.
    Senator Hawley. Very good. Thank you, Mr. Chairman.
    Senator Lankford. Senator Hawley, thank you very much. For 
fear that our judicial nominees would feel overlooked I am 
going to pepper you with questions for a little while, and then 
we will transition to Senator Hassan as well.
    For all three of our candidates, I want to be able to walk 
through a series of questions here. I want to be able to get 
your responses on this, beginning with Ms. Shapiro. The D.C. 
Superior Court is extremely busy. It is backlogged. I know that 
you know that already on this. When there is a delay in 
actually getting to a case there are all kinds of challenges. 
But there is also a bad habit of some attorneys not coming well 
prepared and asking for extensions and delays, which means the 
people that are trying to get to actual justice, to be able to 
get to an answer, they are delayed as well.
    So my two full questions here, what is your perspective on 
catching up on the backlog, and how will you handle that? And 
the second part about this is, how will you hold attorneys and 
individuals accountable for being prepared so that those 
individuals that need to get justice can actually get an 
answer?
    Ms. Shapiro, you are first.
    Ms. Shapiro. Thank you. I very much appreciate the backlog 
and the problem that the Superior Court faces and it is one of 
the most significant challenges that exists there. I certainly 
would hope to come up to speed and be as efficient as possible 
in moving my docket. I also think that it is important to set 
expectations, to go to your second question, with litigants so 
that they understand my courtroom rules and they understand 
what is expected of them in terms of appearances.
    I have spent virtually the entirety of my career in the 
Federal courts, which has much less of a volume problem. It 
still faces challenges. But I think Federal lawyers, when they 
go to Federal court, they have an understanding of what is 
expected and that can go a long way in helping to control those 
issues of delay that you referenced.
    Senator Lankford. Good. Mr. Ross, same question.
    Mr. Ross. Yes. So I echo Ms. Shapiro's statements. I 
believe that the backlog that D.C. Superior Court is facing is 
one of its largest challenges and one of the most difficult 
challenges for all of the D.C. Superior Court judges. And 
promoting judicial efficiency and moving cases along will be 
one of the most difficult challenges that I will face.
    In terms of setting expectations and accountability for the 
attorneys that appear before the court, like Ms. Shapiro said, 
setting expectations is one of the key factors. Also making 
extensions a little bit more difficult in the sense of 
requiring extensions to be filed in advanced is one technique 
that a number of the Federal judges in D.C. use that I have 
found to be efficient. And forcing those litigants to come 
before the court and explain the reasons why they are seeking 
an extension can help ensure that they are prepared and that 
they do not seek extensions frivolously.
    Senator Lankford. Good. Mr. Robbins, same questions.
    Mr. Robbins. Thank you, Mr. Chairman. I want to echo what 
my two colleagues have both side. The backlog caused by the 
pandemic is going to be something that hits us in the face if 
we are lucky enough to be confirmed. And I would only note, as 
you well know, thanks to my term on the MSPB I am a bit of an 
expert on backlogs at this point.
    So I would offer to the--and I also note that the D.C. 
Superior Court is in the process of selecting a new chief 
judge. So I would hope to be able to offer whatever skill sets 
I have to the new chief judge to utilize as he or she sees 
appropriate.
    With regard to case management and holding parties before 
the court responsible for their caseloads, I understand. I 
think all litigation attorneys understand that there are 
pressures with time and caseloads. I think the easiest way to 
deal with it is up front. Attorneys and parties before the 
court need to be honest, and early honest with the court, so 
that these lack of preparations do not surprise the judge at 
the last minute. You can usually work with parties if there are 
scheduling issues, but I have found with my service on the 
board that I did not like to be surprised.
    I would note that the legal practice before the board 
entails quite a few pro se litigants, and we hold those folks 
responsible to meeting their deadlines. So it is not, I think, 
unfair to hold attorneys responsible for meeting their 
deadlines.
    Senator Lankford. That sounds reasonable. Mr. Robbins, I am 
going to ask you this first question as well. All of you have 
areas that you have practiced in before and you have some 
expertise in the law and some experience there. You also have 
some areas where you are not experienced.
    So my simple question to you is, what are you going to do 
to prepare yourself and get yourself ready to be able to hear 
cases in areas where you do not have experience, whether that 
be in civil or criminal?
    Mr. Robbins. Is that for me, Senator?
    Senator Lankford. It is.
    Mr. Robbins. Thank you, Mr. Chairman. I am going to do what 
I do when I start any new job. I am going to work hard to learn 
those things that I do not know as well as others, right off 
the bat.
    My mother asked me an interesting question once. She said, 
``You have an interesting career path. How do you know what to 
do on the first day of a new job?'' And I thought that was very 
interesting, and my response was, ``I have never applied for or 
accepted a job where I was uncomfortable, that I would not be 
able to negotiate the learning curve quickly.''
    And you are right. There are areas of the law that I am not 
as experienced in as others. I like to learn new things. I am 
usually quick at it, and I will just roll up my sleeves and get 
busy and learn.
    Senator Lankford. OK. Mr. Ross, same question. What will 
you do to prepare yourself for areas where you are not as 
strong?
    Mr. Ross. So like Mr. Robbins said, I will take the same 
steps and ensuring that I become familiar with those areas of 
the law when I have a new case, when I maybe have a different 
rotation, and so family court or an area of the law where I do 
not have familiarity. There will be a learning curve, but 
throughout my career I have stepped into different positions 
and handled all different types of litigation where there was a 
similar learning curve. I will use the same experience and 
skills that I used to get up to speed in those matters to make 
sure that I am up to speed and that the court can operate 
efficiently.
    Senator Lankford. OK. Ms. Shapiro.
    Ms. Shapiro. I have been fortunate to have a good deal of 
civil experience and at least a little bit of criminal 
experience. I will likewise need to learn the other areas and 
divisions of the court where I have not had experience. The 
training program at the Superior Court is reputed to be 
excellent, and I expect it to be a fire hose of information, 
and I look forward to processing it and learning all that the 
superior court does.
    Senator Lankford. Great. We will anticipate that, for all 
of you to be able to step into that. All of us have some areas 
of strengths and some areas of weaknesses, but when you sit on 
the bench obviously the person that is in front of you expects 
to be strong in the area that they are dealing with right now. 
So I appreciate your commitments to tenaciously learning it and 
making sure you are up to speed in all areas on that. I 
appreciate that.
    Senator Carper, you had asked for a second round of 
questions, and we have quite a few members that are joining us 
at 10 o'clock, to be able to also ask some questions. So 
Senator Carper, would you like to ask another round of 
questions?
    Mr. Spino. Chairman Lankford, I think he just stepped away 
for a few minutes but should be coming back any moment now.
    Senator Lankford. OK. Let me ask one more quick question 
then of our judicial nominees while we wait on Senator Carper 
slipping back in again. That is, obviously D.C. has issues, 
like every community around the country does. So short 
question. What do you consider one of the most critical areas 
that you can serve D.C. while you are on the bench, whether 
that be family law, whether that be criminal or civil. What is 
the issue? And if you would be as specific as you can, 
obviously, as you know D.C. All three of you live here and know 
the dynamics that we face. What is a specific area that you 
look at and say, ``This is an area where I think I can step in 
and be a help to D.C. from the bench?''
    I am going to start with you, Ms. Shapiro.
    Ms. Shapiro. I think I can immediately jump into the civil 
and criminal dockets, as those are the areas where I have the 
most expertise. I go back to your question earlier about 
backlog, and I think getting up to speed quickly and moving 
cases is a great service to the constituents of D.C.
    Senator Lankford. Great. Mr. Ross.
    Mr. Ross. I, like Ms. Shapiro, I believe that the best way 
that I can serve immediately is to step into the civil docket 
and begin to handle some of D.C. Superior Court's civil cases. 
While there is a tremendous backlog because of the speedy trial 
provisions, a lot of the resources are shifted toward the 
criminal docket, and so the civil docket sometimes gets in an 
even heavier backlog because a lot of the resources have to go 
to the criminal docket. While I am comfortable stepping in and 
helping out in any way that D.C. Superior Court needs me and 
can utilize me, I do believe stepping into the civil docket and 
helping move those cases along efficiently is the best way that 
I can step in and help the residents of D.C.
    Senator Lankford. Mr. Robbins.
    Mr. Robbins. Mr. Chairman, like my colleagues I have a 
background in civil litigation. But to be honest with you, what 
intellectually excites me the most at this point is the 
possibility of doing some criminal, family, and probate law 
issues. I enjoyed family law, I enjoyed probate in law school. 
I have always kept sort of an intellectual curiosity about that 
in my career and have read up on articles. So that possibility 
actually excites me.
    But to be honest, I will do anything that the chief judge 
tells me to do.
    Senator Lankford. Great. Thank you. He or she will probably 
want that in writing. So I appreciate that engagement.
    Senator Carper, do you have additional questions that you 
want to be able to ask as well?
    Senator Carper. I do. Let me ask a question of the judges. 
When I was privileged to be Governor, when I ran for Governor I 
had been a treasurer--I had been Navy, treasurer, a 
Congressman, got to be Governor. And a wonderful guy ran--this 
is my Republican opponent that year--we had 35 joint 
appearances at the base. A lot of them. Nobody ever asked one 
question about what kind of qualities would we look for in our 
judges. And which, in my State, we had supreme court and court, 
chancery court, and a variety, superior court, a lot of courts 
that have national and international reach, no one ever asked 
me that.
    And, over time, among the qualities that I learned to look 
for was judges who know the law, who understand the law, who 
are able to apply it fairly and judiciously, judges who have 
good judgment, judges who are able to make a decision and 
hopefully the right decision, judges who treat the folks who 
come before them fairly, judges who have an open mind--not an 
empty mind but an open mind. And judges who work hard. I never 
wanted to nominate judges to serve in these important positions 
who were going to sort of like retire on the job.
    Would each of you just take maybe half a minute and just 
saying, starting, Mr. Ross, with you, are those qualities that 
I just mentioned, do any of those describe you? Would your wife 
say any of those describe you?
    Mr. Ross. Yes, Senator. So I believe my wife would say that 
fairness is one of the qualities that describes me. And to 
answer your question more directly, I believe the qualities of 
fairness, impartiality, and patience are amongst the most 
important for any judge. Judges are human beings, and they come 
in with their own beliefs and opinions. And one of the most 
important things for them to do is to set their predispositions 
aside and to ensure that each person that comes before them is 
treated fairly, equally, that they are serving in an impartial 
role, and that they are applying the law to the facts that are 
before them.
    Senator Carper. OK. I am going to ask you to hold it right 
there, because I need to hear from the other nominees. That was 
a very good response.
    Mr. Robbins, please, just briefly. Same question, Mr. 
Robbins.
    Mr. Robbins. Thank you, Senator. While I agree with my 
colleague that impartiality and fairness are probably the 
primary skill sets necessary to be a good judge, on top of 
obviously knowing the law, I think my friends and family would 
consider me to be impartial, very patient. I have demonstrated 
through my service on the MSPB an ability to put aside personal 
preferences, personal biases, personal philosophical, 
religious, political views in order to adjudicate cases on the 
merits.
    Senator Carper. All right. Thank you. Ms. Shapiro.
    You are right in the middle of my screen. How could I miss 
you?
    Ms. Shapiro. Senator, each of the qualities that you 
mentioned are qualities that I absolutely agree are important 
to being a good judge and qualities that think I have. I would 
add to that list civility. I think that is an important 
quality. Just because we have adversaries in an adversarial 
system that does not mean adversaries cannot be civil. I think 
that civility generally helps rather than hurts the resolution 
of----
    Senator Carper. I could not agree more. When all else 
fails, use the Golden Rule, treat other people the way that you 
want to be treated.
    Let me come back to our nominees for the postal Governor. I 
explained when I was elected State treasurer I could barely 
spell cash management. And, of course, after a week on the job 
I learned that one of the first things I get to do is to issue 
revenue anticipation notes. I said, ``What are those?'' And 
they said, ``We sell these packages of notes, short-term notes. 
They mature around April 15, and we use the money to meet 
payroll and pensions.'' We had no cash management system, we 
had no cash, and the bank was about to go under. We had nothing 
beyond the Federal Deposit Insurance Corporation (FDIC) 
insurance. And we had no pension plan. And that is why we had 
the worst credit rating in the country.
    They elected a great Governor, a guy named Pete duPont. I 
was elected State treasurer the same year [inaudible] him. Six 
years later, we had a AA credit rating. And about 15 years 
later when I got to be Governor [inaudible] and when one of my 
friends like James Lankford, Gary Peters, and others in the 
Senate, we had a AAA credit rating. We still have a AAA credit 
rating.
    I remember when the credit rating was released in my last 
couple of years as Governor, the AAA, by all the rating 
agencies, each of them had the same message for me. They said 
you have a liability in Delaware that you have not recognized, 
much less funded. I said, ``What is that?'' They said 
[inaudible] pension. I said, ``We have a pension fund that is 
fully funded.'' And they said, ``Yes, that is true but we now 
have health care liability for all those pensioners that you 
have not set any money aside, and you need to fund it.'' So we 
began funding it, very slowly. We are still funding it very 
slowly.
    As it turned out, a lot of businesses, a lot of government 
had that same liability. For the most part they have not funded 
it. They are not even recognizing it. The Postal Service, we 
said they had to recognize that liability and pay it off 
literally in 10 years. Not 20, not 30, not 40, but 10. If you 
look at the Fortune 100 companies, Fortune 500, Fortune 1000 
companies, they have not even recognized it in a lot of cases, 
much less funded it.
    And we want to treat the Postal Service like a business of 
the future, in many respects. That is one of the issues that we 
will be before you, and before us in the Congress.
    The second issue is a question of pricing, the pricing of 
products and something called the PRC. And they have been going 
through an exercise of [inaudible] prices that are charged to 
different kinds of--whether it is packages, whether it is 
magazines, whether it is newspapers, it is First-Class Mail or 
Standard Mail. What should they be charging? We have to find a 
solution providing long-term stability.
    I think the last one, one or both of you said that part of 
the lesson here is to figure out how do we take this burden of 
going to every mailbox 6 days a week, and actually find ways to 
make money that are consistent with what the Postal Service is 
doing. Those are some things I would like to leave with you, we 
can discuss virtually, but actually in person and with the 
other Governors on the board of trustees.
    There are plenty of challenges here but there is 
opportunity as well. The key in all of this is leadership, 
leadership from you, when you are confirmed to serve on this 
Board, and the Postmaster General who you selected. Initially I 
was frankly not real excited about that choice, but I think 
maybe I may have misjudged that choice. I think it may be a 
much better choice than I thought. And the other thing is 
leadership from us, those of us who serve, especially on this 
committee.
    But thanks very much and I look forward to getting to know 
you well, and I certainly work with you in taking a 200-plus 
year old institution and make it shiny.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you, Senator Carper. Senator 
Hassan.
    Senator Hassan. Thank you, Mr. Chairman, and thank you 
again to our nominees for your willingness to serve the 
American people.
    My first question is to Mr. Moak and Mr. Zollars. As I 
stated in my opening remarks, we find ourselves in a time of 
crisis due to the COVID-19 pandemic. The Postal Service has 
projected revenue losses up to $13 billion this year and $10 
billion next year, and there are concerns that it may run out 
of funds by September if Congress does not intervene.
    What, in each of your experiences, has prepared you to take 
on this massive challenge, and if confirmed, what will you do 
as a member of the Board of Governors to address the financial 
problems facing the U.S. Postal Service?
    Mr. Moak, why do you not go first.
    Mr. Moak. Senator, again, I am not a postal expert but I 
would like to give an example of where I have dealt with issues 
like this in the past, if I was to pivot and tell you that it 
is often hard to get people to act, to get groups to act 
collaboratively. If you look at the challenges that are facing 
the Postal Service, as you just pointed out, I believe we need 
to do something sooner than later. And right now with the 
challenges that they are facing, I think this is going to be 
the time that we can bring all the stakeholders together so 
that we can come up with a solution collaboratively and put the 
Postal Service on the proper footing, not only for this fall 
but the future, so that it cannot just be sustainable but it 
can actually thrive. I believe now is the time.
    Senator Hassan. I take it you believe there are things in 
your past experience that will help you build that kind of 
consensus and action?
    Mr. Moak. Absolutely.
    Senator Hassan. Thank you. Mr. Zollars.
    Mr. Zollars. Senator, this is the big question, right, and 
I am a big believer in it is easier to solve a problem with a 
burning platform, and we certainly have a burning platform in 
front of us with the USPS. I would not pretend to know all the 
answers to this but I can say that some of the challenges look 
very similar to my past life--the challenges about declining 
revenue, increasing costs, cost disadvantage against the 
competitors, unfunded liabilities. Although I will say that my 
research into the liability situation looks like about two-
thirds of the liability is coming from health care and the 
other third from pension. The other thing that is actually good 
news is it is 85 percent funded in all cases.
    I guess my answer is this is going to be a complicated 
problem to solve, but I think if you can break it down into 
component parts and put together a strategy that is 
comprehensive, that addresses all of the issues, including the 
services we provide, the cost of those services, optimizing the 
network, making sure we have effective technology, and then 
putting it together in a plan that everybody can embrace, I 
think we have a very good chance of solving this. I do not 
think we have time to waste.
    Senator Hassan. Well thank you for that. I have one more 
question for Mr. Moak and Mr. Zollars, and I will ask you to be 
relatively brief in your answers so I can ask one question of 
our judicial nominees.
    But to Mr. Moak and Mr. Zollars, even as it struggles 
financially and faces some of the unprecedented challenges due 
to COVID-19 that we have discussed, the Postal Service 
continues to deliver mail and packages across the United 
States. The men and women of the postal workforce are risking 
their health to serve their fellow Americans, and we have to 
find ways to ensure that the Postal Service can continue to 
serve the American people while keeping its workforce safe.
    So what role does the Board play in protecting the postal 
workforce from this deadly virus, and how will you, if 
confirmed, prioritize worker health and safety?
    Mr. Zollars, why do we not start with you?
    Mr. Zollars. I think this has to be our No. 1 priority. The 
safety of the associates is always at the forefront. We really 
do not have a Postal Service without the postal delivery front 
end of this, and so it has to be a top priority right from the 
beginning.
    Senator Hassan. Thank you. Mr. Moak.
    Mr. Moak. I think we have to prioritize the health and 
safety of our customers to citizens, and therefore to protect 
them we also have to prioritize the health and safety. We have 
a duty to do that, to the United States Postal Service 
employees. And by doing that we achieve both of those.
    We have had these challenges before in this country, back 
during September 11, 2001 (9/11) and other times, and I think, 
if anything, we are up to that, and working with the Board we 
will be focused on safety.
    Senator Hassan. Thank you. I hope so. And we may follow up 
with some questions for the record on that issue.
    Let me move to our other nominees for a minute. To Mr. 
Robbins, Mr. Ross, and Ms. Shapiro, it is vital that all 
Americans are treated equally in our justice system, regardless 
of the color of their skin, and if confirmed you will have an 
important role in ensuring the fair treatment of Americans in 
the D.C. Superior Court system.
    If confirmed, what measures will each of you take to ensure 
that all of those who enter your courtroom are treated equally? 
And we will start with Mr. Robbins.
    Mr. Robbins. Senator, I think any individual who is honored 
to sit on a bench as a judge owes the people that come into his 
or her court an ability to put aside any personal bias they may 
have, to put aside their philosophy, their religious and 
political views, and to treat individuals based solely on the 
circumstances that have brought them to the court and apply the 
law as it needs to be applied to address their circumstances.
    I am pleased that, at least at an appellate level, I was 
able to do that for my 7 years on the Merit Systems Protection 
Board, adjudicating over 4,000 cases. I can honestly tell you 
there were times when I probably, in my personal life, would 
not have approved of the conduct of some of the parties. I 
would not have enacted the legislation that turned into statute 
that I was applying. But you learn to do that, and you do it 
uniformly and you do it fairly for everyone.
    Senator Hassan. Thank you. Mr. Ross.
    Mr. Ross. So I agree with Mr. Robbins that it starts with 
the judge, and it is your job, as the judge, to make sure that 
you are putting aside your predispositions and personal bias 
and ensuring that each litigant that comes before you is 
treated equally and fairly, that their matters are heard on the 
merits, and to set that same expectation for your entire court 
staff.
    Senator Hassan. Thank you. Ms. Shapiro.
    Ms. Shapiro. Senator, I completely agree with the premise 
of your question, that treating all litigants fairly is 
absolutely a vital function of the court. I would intend to do 
that. I would also try to get as much representation for pro se 
and indigent parties that is possibly available.
    Senator Hassan. Thank you. That is an incredibly important 
point, the last one, because it really does make a difference 
to have representation in the courtroom, and we see increasing 
numbers of pro se litigants. So thank you very much, all of 
you, again, for your willingness to serve, and thank you, Mr. 
Chair.
    Senator Lankford. Thank you, Senator Hassan. I want to 
recognize the Ranking Member of the full Committee, Senator 
Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. I appreciate that. 
My question is to Mr. Moak and Mr. Zollars. First off, thank 
you for being here. Thank you for your willingness to serve.
    In 2012, the Postal Board of Governors launched a 10-year 
plan of postal reforms that relied largely on cuts, including 
planned closures of processing facilities as well as post 
offices. There was also a reduction in service standards that 
affected how quickly people actually receive their mail, as 
well as workforce reductions. Certainly Congress stepped up and 
called many of these actions out and halted some of these 
plans, including a second wave of facility closures that would 
impact the ability for the Postal Service to provide the kind 
of service that people expect from the Postal Service.
    So my question is, as you work toward ensuring 
sustainability, which we have to be focused on for the Postal 
Service and so their finances are sustainable, how would you 
devise an operational strategy that does not rely upon damaging 
cuts in order to get through the current financial situation?
    Mr. Moak. Senator, this is Lee Moak. So on your question 
you are saying in 2012, a 10-year plan. If you look back to 
2012, when that plan was developed, it appears shortly 
thereafter the Board of Governors stopped to function as a 
quorum. So you have a plan that you do not have all 
stakeholders have bought into, that is over a decade, and you 
do not have functioning Board of Governors that oversees the 
plan, and then Congress executed its fiduciary responsibility 
to step in and halt some of the things that were not perhaps 
properly coordinated.
    What I believe is it needs to be looked at in great detail, 
with all stakeholders. There needs to be a shorter executable 
plan that is transparent, that has proper oversight, and that 
there is a methodology to get from the beginning to the end, 
that everyone agrees on. And that is the key to success.
    Senator Peters. Right. Mr. Zollars.
    Mr. Zollars. I think a little bit of this is redundant, but 
I think this is really our focus on better service at lower 
cost. I think the mission requires us to be a universal 
provider of service. So that is kind of where this all starts.
    As I said earlier, you can do both. They are not mutually 
exclusive. But I think this has to be something that is divided 
up into actionable pieces so that we can actually move the 
entire challenge forward. I think a 10-year plan, to be honest, 
in my mind, is not really a plan. I think we need a strategy 
that has alignment of all the stakeholders, including the PRC 
and Congress as well as the rank and file of the USPS and the 
Board of Governors. And once you get that alignment and 
everybody buys into that strategy, I think you sequence the 
execution in a way that allows you to make progress quickly and 
build on that progress to build momentum, to get to the end of 
the goal, which is to be a sustainable service that provides 
service to everyone in the country.
    Senator Peters. Thank you. This question is to both of you 
again. In your statements and discussions with the Committee 
you have recognized, and I appreciate that, that the postal 
workforce is the key asset of the Postal Service, a vibrant and 
professional workforce. Postal workers are certainly the heart 
of the Postal Service. They are front-line workers that you see 
every day when you go into the Postal Service. They deliver for 
you every day. They check in with you. They work rain and 
shine, which they are famous for. And as you know, the Board's 
strategic and financial decisions certainly directly affect 
this workforce in a very tangible and very real way.
    So my question to both of you is how will you ensure the 
Board takes into consideration the human impact of any cost 
benefit analysis, and will you commit to seeking the view and 
ideas of postal workers as part of your strategic planning?
    Mr. Zollars. This is Bill Zollars and let me start and Lee 
can jump in here. I think this is really one of the fundamental 
keys to progress is making sure that the people that are 
actually doing the work understand and buy into the strategy of 
the organization. So I think it is a fundamental requirement to 
get the entire workforce of the USPS, which is really the 
strength of the organization, to understand and embrace the 
strategy before you go to step two. I think that is really the 
fundamental first step.
    Mr. Moak. Senator, this is Lee. I think we do our best work 
when we have the USPS postal workers working with management, 
telling the Board, advising the Board on the best way to do it. 
So workers, labor, and management working collaboratively 
together is a key element of success.
    Senator Peters. My final question to both of you as well is 
that changes to the pricing of Postal Service products, as you 
know, can certainly impact affordability and accessibility of 
these products across the country. Particularly I have found it 
in rural areas. The Postal Regulatory Commission has determined 
that packages are currently covering their costs and their fair 
share of overhead costs. One major concern about raising prices 
is the impact on accessibility. Many individuals and small 
businesses particularly in rural areas across Michigan simply 
cannot afford price increases, and the Postal Service, as all 
of you know, is vital to their business.
    So my question to both of you is how would you work to 
ensure that Postal Service products maintain fair prices that 
do not limit consumer access, and how would you ensure pricing 
decisions do not create disparities in access to various 
communities based on pricing?
    Mr. Zollars. This is Bill again. I think this is another 
area where some of my previous experience can pay off. As I 
mentioned earlier, in my former life we delivered to every ZIP 
code in the country, and we did it in a way that was 
competitive. I think one of the real interesting examples of 
how important the Postal Service is is the fact that all of 
their competitors use the Postal Service for that last mile 
touch, and that is not by accident. It is because they do it 
more efficiently than anybody else.
    I think we need to take advantage of some of those 
attributes that the Postal Service has and make sure that we 
deliver service that is acceptable to the customer at an 
acceptable price.
    Mr. Moak. Senator, the customer is very important. Market-
based pricing to ensure that the Postal Service becomes 
sustainable and profitable is also important, so that you do 
not limit access to rural America or any Americans to the point 
that it then affects the elasticity of actually using the 
service.
    I recognize exactly what you are saying. I think it is 
important. And we need very good data, up-to-date data so that 
we can make sure that we address those issues.
    Senator Peters. Great. Thank you, gentlemen. Thank you both 
for your answers and your willingness to serve.
    Senator Lankford. Thank you, Senator Peters. Senator Rosen 
is recognized.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Mr. Chairman, and thank you, 
everyone, for being here today and again for your willingness 
to serve. I do not have to tell anybody here that the post 
office touches every single American and every single business 
6 days a week, week in, week out, 52 weeks a year. And the past 
several months has taught us that neither snow, nor rain, nor 
global pandemic is going to stop the incredible men and women 
of the U.S. Postal Service from doing their jobs.
    And so tens of millions of Americans out of work, countless 

others are staying home because they are sick or 
immunocompromised. Stores are closed because of the pandemic. 
But the Postal Service and its employees have never been more 
important to us. Nevadans and all Americans are relying on the 
USPS to receive their medicine, their CARES Act stimulus 
checks, their social security benefits, any needed supplies 
from personal protective equipment (PPE) to laptops for those 
students who now have to learn at home.
    And so our current public health situation highlights a 
role that the Postal Service has had for decades in responding 
to crisis. Since the 1990s, the postal plan has outlined the 
role of USPS in delivering antibiotics to residents during a 
catastrophic event, using the inherent efficiency of the USPS 
infrastructure. That is because we have become keenly aware 
during the pandemic that the United States Postal Service, its 
uniquely expansive network, gives us the ability, on a daily 
basis, to touch everyone. It cannot be replaced or replicated.
    And so for both Captain Moak and Mr. Zollars, as we 
continue to combat COVID-19 and also prepare for our next 
pandemic or any other crisis we may consider, how do you think 
the Postal Service can use its network to innovate and aid the 
Nation when other institutions or entities are unable to 
function normally, like they are now?
    We will go to Captain Moak. I see you. We will have you go 
first there.
    Mr. Moak. Thank you, Senator. If confirmed, I intend on 
looking into great detail on the very matters you are talking 
about. But my experience says that what we have been dealing 
with recently, and over the last decade, especially after 
September 11, 2001, really emphasizes just how important the 
Postal Service is to the Nation.
    I agree with all that. I think the challenge is how we 
continue to improve on that very vital service that you talk 
about, and at the same time make it an economically viable 
enterprise going forward. I believe that that can be done. We 
just need to focus and we need input from all stakeholders, and 
we have to agree on how to do that going forward.
    Mr. Zollars. Senator, this is Bill Zollars. First of all, 
it really does point out how smart our Founders were to put 
this in the Constitution. And the fact that it is provided for 
is just the beginning, really, as a vital service to the 
population.
    At the end of the day, this is really a huge logistics 
network, probably the biggest in the world. I think my 
background in logistics and network optimization could probably 
add a little bit to the solution here. I think it is going to 
be a difficult challenge, a pretty substantial set of problems, 
but I think it is a solvable problem because it has been solved 
by others in the past in smaller logistics networks. I think 
this is another opportunity for us to bring some of that to 
bear on this challenging issue.
    Senator Rosen. I appreciate that, and I actually think now 
that I am listening to both of you in this hearing that we 
should include the USPS in all of our United States disaster 
planning missions, domestic disaster planning missions, whether 
they be from infectious disease or other things that we try to 
protect our homeland for. So I think we need to push for that.
    But in that light, when we do, how do you think us, as 
legislators, can put the Postal Service in a better position to 
respond, whether it is financially or with regulation or 
legislation, to help them do what they need to do to support 
the American people in the time of any crisis, whether it is a 
flood or hurricane, a pandemic, or another?
    I can ask both of you again, please.
    Mr. Moak. Senator this is Lee Moak. Again, if confirmed, I 
look forward to working with the Chairman of the Board of 
Governors, the other Governors, as we go to fill out this Board 
to a fully staffed and functioning board, listening to USPS 
management, the new Postmaster General, and all other 
stakeholders involved so that we can come back and answer these 
very critical questions that the Congress is asking. It is 
going to take everyone working together to first understand 
exactly where we are at, and then decide where we want to go. 
And then we have to focus on the leadership it takes to get 
there, and then execute on that so that we cannot only make it 
vital but improve on the USPS, as you have stated.
    Senator Rosen. Thank you.
    Mr. Zollars. Sorry. This is Bill, and I would say the first 
step is to have an open mind, and that we would be very 
interested in the ideas coming from Congress on that specific 
example that you gave, because I think it is a critical part of 
the response that we need to have ready, and at least require a 
strategy. But I would be very interested in ideas coming from 
Congress as well as the other stakeholders.
    Senator Rosen. Yes. I think especially in the event of 
natural disasters that may be localized--wildfires in Nevada, 
hurricanes, tornadoes, or floods in other places--how does the 
post office help us get through that as well for critical 
things like medication and checks and all of that.
    I appreciate your willingness to serve. Thank you for being 
with us today.
    Senator Lankford. Thank you, Senator Rosen. Senator Sinema 
is recognized.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman. I appreciate the 
nominees joining us today and I look forward to our discussion. 
My questions today will focus on our two nominees for U.S. 
Postal Service Board of Governors, and I will have questions 
for our judicial nominees that I will submit later for the 
record.
    The U.S. Postal Service is a critical lifeline for 
communities across Arizona and the entire nation. During this 
pandemic, we need a strong Postal Service to help families stay 
connected, deliver prescription drugs to those in need, and 
support Arizona businesses.
    The Postal Service also plays an important part in critical 
initiatives such as the U.S. Census and voting. It is critical 
that Congress, the Administration, and the Board of Governors 
work together to ensure a successful future for the Postal 
Service.
    My first question is for both of our postal nominees. Mr. 
Moak, if you could speak first and then we will turn to Mr. 
Zollars. In 2011, the Postal Service completed several area 
mail processing studies and determined that a number of 
processing plants, including the Cherrybell plant in Tucson, 
Arizona, should be consolidated or closed to cut costs. So, as 
we know, the USPS was unable to carry out these consolidations 
and the plants remain open today, but the Postal Service has 
also never formally removed the plants from the consolidation 
list.
    If the Postal Service Board determined that further 
processing plant consolidations are needed, would you support 
moving forward with consolidations based on those 2011 mail 
studies or would you want to see updated data before the Board 
makes a decision, and why?
    Mr. Moak. Senator, a study done in 2011 obviously needs to 
be updated to today, and I look forward to participating in 
that study and looking at that data. I will say if it is 
determined that you need to consolidate or close processing 
centers, probably it might be a consideration to look at a 
process much like what was used in the 1990s, when they were 
looking at military base consolidation or closures.
    But the 2011 study should not be executed on today. It 
definitely should be updated, and again, all stakeholders and a 
strategic plan developed before we move forward.
    Senator Sinema. Thank you.
    Mr. Zollars. Senator, this is Bill Zollars. I would say 
that any network optimization that is done must be done without 
jeopardizing the service to the residents of the country, and I 
think that can happen. I do not know much about the analysis 
but I would agree that that is probably way out of date now, 
particularly because of the events of the last several months.
    But network optimization is definitely something that needs 
to be looked at, though it has to be looked at from the context 
of not jeopardizing the service to the individuals and the 
country.
    Senator Sinema. I appreciate those responses.
    Mr. Zollars, I will have you answer this second question 
first and then we will go back to Mr. Moak. In some parts of 
Arizona we have aging, out-of-date postal infrastructure and 
processes, partly due to our very high levels of population 
growth. Many towns made improvements in how the mail is 
delivered, such as moving away from or greatly improving post 
office box delivery. And other offices need to increase staff 
so they can better serve customers.
    As a Board member, how would you navigate a situation where 
there is a dueling need to control costs due to falling mail 
volume nationwide while also investing in service improvements 
so the Postal Service can meet its mandate to provide service 
to every American?
    Mr. Zollars. This is really at the crux of the problem, and 
as I have said before, in my previous life people have come to 
me and asked whether I wanted lower costs or better service and 
my answer was always ``yes, we want both.'' So I take--this is 
a problem that really has to look at all of the aspects--the 
services offered, the network optimization, the technology 
tools we have, our ability to service the various channels and 
leverage that logistics network, particularly the last mile, in 
a way that it is most effective for the Postal Service and 
deliver the best service.
    I do not think on this one there is any easy answer, but it 
is one that I have looked at before and I am anxious to get 
into the USPS information and see what is in there. I would 
expect this would be a central part of what I would be looking 
at.
    Senator Sinema. Thank you. Mr. Moak.
    Mr. Moak. Senator, I believe that we should always be 
trying to improve service, never step back. With improved 
service, and when you are looking at this complex part of the 
problem, where you have aging infrastructure, you have to 
balance the capital expenditures that are necessary going 
forward that will improve that service, perhaps make it more 
efficient, but then make it also cost effective. So you cannot 
do one without the other, and you need a plan for tomorrow. You 
need a 1-year plan, a 3-year plan, and a 5-year plan, and you 
need the ability to execute on it, and then you can address 
those issues.
    Senator Sinema. Thank you. This is my last question, again, 
for both of you. It is always going to cost the Postal Service 
more to deliver the mail in rural areas. Letters and packages 
have to be carried over longer distances with less address 
density, of course, and higher gas costs. But rural America 
needs the Postal Service more than urban areas, and the Postal 
Service is a lifeline for rural communities and businesses.
    What ideas and experiences would you bring to the Board 
that show you are ready to help protect rural Postal Service?
    Mr. Zollars. I can start again. This is Bill. I was just 
coming out of an organization where we have had exactly that 
problem, at YRC, where we had to deliver to customers 
regardless of distance or density, and we found a way to do 
that effectively and competitively. I think it goes back to the 
structure of the logistics network and how you approach this 
mission.
    But clearly the mission is to either improve or at least 
keep services the same for rural America. I happen to live in 
Kansas so I am very familiar with the rural America value that 
the Postal Service delivers every day, and it is something that 
I really focus on making sure we do not let deteriorate.
    Senator Sinema. Thank you so much. Thank you, Mr. Chairman. 
Hold on. I think we wanted to get a second response from Mr. 
Moak. I apologize.
    Mr. Moak. Just a quick response. I think you focus on 
improved service, and I believe that this is a fundamental part 
of the mission of the USPS for rural America, and I look 
forward to getting in there and tackling the challenges, if 
confirmed.
    Senator Sinema. Thank you, and I apologize for my oversight 
in almost skipping you.
    Mr. Chairman, thank you.
    Senator Lankford. Thanks, Senator Sinema. Let me ask a 
couple of questions to Mr. Moak and Mr. Zollars as well. We are 
heading down the home stretch so let me do a little bit of 
lighting round questions with you, to be able to go through. 
And let me give you something nice and simple to be able to 
cover.
    International mail coming in is notorious for also carrying 
in contraband, whether that be fentanyl, opioid products, other 
things. Managing what is inside a package of international mail 
has some unique challenges.
    So for Mr. Zollars and Mr. Moak both, what would you do to 
be able to help improve the process and the oversight to be 
able to make sure that we know what is in a package when it is 
coming into the United States?
    Mr. Zollars. Unfortunately, Senator, this is an area where 
I have some experience as well, because our network at YRC was 
very attractive to people doing bad things and shipping bad 
things through our network because it was high velocity and we 
went everywhere. So we worked very effectively with local law 
enforcement and national law enforcement, including the Federal 
Bureau of Investigations (FBI), Customs, and the rest of the 
justice organizations to make sure that there was a real 
transparent conversation going on, in a real-time way, between 
those organizations and our organization. We had a lot of 
information that would allow us to pinpoint things that did not 
look quite right and then pass that on and work closely with 
law enforcement.
    Mr. Moak. Senator, I look forward to learning more about 
this problem. I believe it is solvable, especially with new 
technologies, and we tackle this because it is unacceptable for 
fentanyl and other drugs to be coming into this country and 
using the USPS.
    Senator Lankford. Yes, I would agree. There are some 
technology solutions. We need to be more aggressive in how we 
are actually managing mail before it enters into the United 
States, but it will be an ongoing issue that is solvable, but 
it is still an issue at this point to try to get it resolved, 
with the right technology, and get it implemented as quickly as 
possible.
    Let me switch to a financial issue. USPS made a request at 
the beginning of the pandemic that they estimated that they 
would be $25 billion short this year. There was a $10 billion 
loan that was extended out from Treasury and the Federal 
Reserve to USPS, to be able to make sure they carry them 
through. Now as we see the numbers coming in obviously there is 
a dramatic increase in packages. It looks like, actually, USPS 
will do financially better this spring than they did last 
spring. And so instead of a huge drop there was actually an 
enormous increase during this time period.
    That is helpful for USPS. That is attributable also to the 
great employees and the folks that work all over the country 
for the Postal Service. We are very grateful for what they have 
done, how they worked through this process, and how many people 
have been at home asking for packages to be delivered. But it 
goes back to asking the question again, doing estimates, 
engaging, getting the right numbers, and getting rapid numbers 
to Congress.
    Mr. Moak, let me begin with you. How will you handle 
estimates, doing requests to Congress for additional 
appropriations or for additional requests, or to be able to 
manage predicting finances, knowing that pandemics are 
impossible to predict? It is the nature of it. But trying to be 
able to get as accurate numbers as possible so that we can all 
make the right decisions.
    Mr. Moak. My experience with airline bankruptcies and the 
black swan events, whether it is a pandemic or H1N1 or a 
terrorist event let me to understand one thing about 
forecasting, that is 100 percent true every time, and that is 
that the forecast is wrong. It is a little more; it is a little 
less. What we need here in this situation with USPS is we need 
to get good data in a timely fashion so that the Congress, the 
Board of Governors, and the USPS management can make timely 
decisions and adjust quickly when need be.
    Senator Lankford. Mr. Zollars.
    Mr. Zollars. I would just add to what Lee said, that we 
need to come to you with a comprehensive plan that has the 
input of all of our stakeholders, and make sure that we have 
your support as we go forward with that plan. I think, it is 
really important to ensure that we are all in alignment on what 
needs to be done and when.
    Senator Lankford. I completely agree. We will have unique 
challenges but it is a trust-building experience as well to be 
able to make sure we get as good of an estimate as possible and 
update those numbers as rapidly as possible so we are all able 
to keep good flow of information going back and forth.
    In 2018, the Trump administration had a task force on USPS 
and talked about the unsustainable path that is there. They 
recommended 25 administrative and legislative recommendations. 
I am not going to ask you to go through all 25. I assume that 
you have seen them and had the opportunity to be able to review 
those. But do any of those 25 stand out to you in particular, 
and say this is going to require more of a look, that you would 
say I either strongly disagree or strongly agree, or this is 
going to be one that really comes to mind quickly, of the 25 
recommendations of that task force from 2018?
    Mr. Moak.
    Mr. Moak. I would say that what stands out to me in the 
report is, interweaved all through the report is the concept 
that Congress has to make some decisions, and they need to work 
with not only the Board of Governors, the PRC, the USPS 
management to define not only USO in more specificity but also 
what they want USPS to be, going forward. I think that is a 
common thread all through the report, all through the task 
force report.
    Senator Lankford. OK. Mr. Zollars.
    Mr. Zollars. Yes. I think I have said this a couple of 
times but it is worth repeating. I think there is an 
opportunity here to leverage the last mile, or first mile, 
which end of the package or letter you are looking at, in a way 
that maybe we have not fully embraced at this point. It is 
clearly a sustainable advantage for the Postal Service and one 
that I really am interested in looking at more closely, to see 
if we cannot leverage it more effectively.
    Senator Lankford. OK. That would be helpful. I have one 
last question. It is more of a philosophical question where you 
see the lanes here. We have an Inspector General (IG), we have 
a PRC, we have a Board of Governors. Obviously there is a lot 
of dialogue and a lot of dreaming and visioning that happens in 
all of those, and a lot of recommendations that happen in all 
of those. What lane do you see that is specific to the Board of 
Governors that you would say IG has this lane, PRC has this 
lane, and we want to make sure that we dominate in this lane of 
information in assistance to the USPS?
    Mr. Zollars, can you go first on that?
    Mr. Zollars. Yes. I think it is really important for the 
Board of Governors to drive the discussion on this. We really 
own the development of the strategy along with the other 
stakeholders, so I think it is up to us to lead that 
discussion, bring whatever plan we think is most effective to 
Congress and to the PRC, and try and get alignment among all of 
the stakeholders. But I really believe that the Board of 
Governors is responsible for developing it.
    Senator Lankford. OK. Mr. Moak.
    Mr. Moak. The Board of Governors has the strategic tasking 
to come up with the plan while working with all of the 
stakeholders, and needs to do it in a transparent fashion. So 
it should be happy to have the Inspector General come in at any 
time and look at what the Board of Directors is doing. But 
again, the Board of Governors should be working with the PRC, 
the IG, the Congress, all stakeholders, USPS management, and 
the USPS employees to make sure that we have the best customer 
service at a sustainable and thriving, fiscally economic 
environment.
    Senator Lankford. I would say that the Congress and the 
American people are very dependent on all of those for good 
information, but uniquely the strategy, the focus, the 
responsibility, it is why this Committee has worked so hard in 
the last couple of years to be able to make sure that we get a 
quorum, keep a quorum, because we need a functioning Board of 
Governors to be able to not just be there and look for who has 
the ball but for them to understand that they have the ball. 
There is an expectation that now that they have a quorum that 
they can actually move on the issues that need to be done, and 
to be able to help make this sustainable, and to make those 
recommendations that need to be made to the Legislative branch, 
because I do agree with the President's task force. Congress 
has a responsibility that they have not taken up and that needs 
to be addressed in the days ahead.
    And let me pause for a final moment to see if other 
Senators have a final question. If not, I am going to wrap up. 
So are there any other final questions from other Senators?
    [Pause.]
    I am going to take that as a no then, and go ahead and wrap 
up.
    Let me say thank you to all of our nominees. We very much 
appreciate you going through the process. This has not been an 
easy process from the beginning. Many of you have been in this 
process many months to years, to be able to get to this spot. 
So that you know that we understand, we want to say thank you 
to you for going through this long, arduous evaluation process. 
That is not done, obviously. This Committee still has to be 
able to take a vote, and then the full Senate has to be able to 
take a vote for the final confirmation. But today was a major 
milestone in that process. So thanks again for going through 
all this.
    The nominees have made financial disclosures.\1\ Those are 
provided, and they have provided their responses to those 
biographical prehearing questions.\2\ All of those have been 
submitted to the Committee.\3\ Without objection, this 
information will be made part of the hearing record,\4\ with 
the exception of the financial data,\5\ which is on file and 
available for public inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The information of Mr. Moak appears in the Appendix on page 40.
    \2\ The information of Mr. Zollars appear in the Appendix on page 
96.
    \3\ The information of Mr. Robbins appear in the Appendix on page 
147.
    \4\ The information of Mr. Ross appears in the Appendix on page 
178.
    \5\ The information of Ms. Shapiro appears in the Appendix on page 
204.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
June the 4, for the submission of statements and questions for 
the record.
    Thank you again to all of you. With that, the hearing is 
adjourned.
    Mr. Moak. Thank you, Senator.
    Senator Lankford. Thank you all.
    [Whereupon, at 10:43 a.m., the hearing was adjourned.]

                            A P P E N D I X

                              ----------   
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               




                                 <all>
</pre></body></html>
